DOJ OIG Issues Report on Activities Under Section 702 of the FISA Amendments Act of 2008


         Inspector General Michael E. Horowitz of the United States Department of Justice Office
of the Inspector General (OIG) recently issued a report examining the activities of the Federal
Bureau of Investigation (FBI) under Section 702 of the Foreign Intelligence Surveillance Act
Amendments Act of 2008 (Act). Section 702 authorizes the targeting of non-U.S. persons
reasonably believed to be outside the United States for the purpose of acquiring foreign
intelligence information. The Act required that the Inspector General conduct a review of the
Department’s role in this process and, in conjunction with this review, the OIG reviewed the
number of disseminated FBI intelligence reports containing a reference to a U.S. person
identity, the number of U.S. person identities subsequently disseminated in response to
requests for identities not referred to by name or title in the original reporting, the number of
targets later determined to be located in the United States, and whether communications of
such targets were reviewed. See 50 U.S.C. 1881a(l)(2)(B) and (C). The OIG also reviewed the
FBI’s compliance with the targeting and minimization procedures required under the Act.

       The final report has been issued and delivered to the relevant Congressional oversight
and intelligence committees, as well as leadership offices. Because the report is classified, its
contents cannot be disclosed to the public.
